BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Lavern
Behm v. Montana-Dakota Utilities Co., was sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent Next Day Service and e-mail to the
following parties listed below, this 16th day of April,
2021:
Zachary R. Eiken
Crowley Fleck PLLP
100 West Broadway Ave., Suite 250
P.O. Box 2798
Bismarck, North Dakota 58502-2798
(701) 223-6585
zeiken@crowleyfleck.com

Counsel for Respondent
Lynn M. Baughey
Counsel of Record
Baughey Law Firm
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485
lynnboughey@midconetwork.com
Robert Hale
1919 2nd Street SE
Minot, ND 58701
(701) 858-0800
couple48@hotmail.com

Counsel for Petitioner

(800) 890.5001

8790 Governor's Hill Drive
Suite l 02

, Franklin Square
1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

: Washington, DC 20005

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 16, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

r tUf :J-J

t?-.q~ -===

Notaty Public
[seal]

AMY TRIPLETT MORGAN

Attorney at Law
Notary Public, State of Ohio
My Commission Has No Expiration
Date. Section 147.03 O.R.C.

